    Board of Governors of the Federal Reserve System



 REPORT ON THE CONTROL REVIEW OF
THE BOARD’S CURRENCY EXPENDITURES
         AND ASSESSMENTS




     OFFICE OF INSPECTOR GENERAL

                                                September 2008
                                       September 30, 2008


Ms. H. Fay Peters, Director
Management Division
Ms. Louise L. Roseman, Director
Reserve Bank Operations and Payment Systems
Board of Governors of the Federal Reserve System
Washington, DC 20551

Dear Ms. Peters and Ms. Roseman:

      The Office of Inspector General (OIG) of the Board of Governors of the Federal Reserve
System (Board) is pleased to present its Report on the Control Review of the Board’s Currency
Expenditures and Assessments. Currency expenses are the largest line item on the Board’s
annual financial statements, totaling approximately $576 million in 2007. This figure appears
twice on the financial statements—as an expense for printing, transporting and retiring Federal
Reserve notes, and as an assessment levied on the Reserve Banks for the cost of currency—with
a zero net effect on the Board’s reported results of operations. Because these currency costs are
levied on the Reserve Banks and also appear on their financial statements, a sound control
environment is important to ensure that the costs and processes associated with the currency
function are accurate, fully supported, and in compliance with applicable laws and regulations.

       Our objective was to evaluate the effectiveness of the Board’s controls over processes to
record currency expenses and to levy assessments on the Reserve Banks for these expenses.
More specifically, we assessed whether the controls over these transactions are designed and
operate effectively to provide reasonable assurance that (i) records and transactions are
maintained in sufficient and accurate detail to permit the preparation of the Board’s financial
statement information in accordance with generally accepted accounting principles; (ii) financial
transactions are processed in compliance with applicable laws, regulations, and management's
authorization; and (iii) unauthorized or fraudulent transactions are prevented or can be detected
in a timely manner. As part of our review, we developed detailed flowcharts and narratives of
the Board’s expenditure and assessment processes for each currency expense, including the
Board’s interaction with the Bureau of Engraving and Printing (BEP) for currency production
and billing. We used the flowcharts to identify controls, and tested certain controls by tracing
currency-related transactions through the Board’s expenditure and assessment processes.

      Overall, we found that the Board has controls over the processes to record currency
expenses and to levy assessments on the Reserve Banks for these expenses, and that the majority
of the controls were operating effectively. We did not detect any instances of fraud or other
improprieties. Although our testing did not identify any significant discrepancies, we did find
opportunities to strengthen the Board’s controls for paying currency invoices, preparing and
Ms. Peters and Ms. Roseman                    2 of 23                        September 30, 2008

processing assessments, monitoring vendor performance, and reporting the currency expenses in
the Board’s financial statements. In addition, fully implementing certain automated controls in
the Board’s financial management system would improve controls and reduce manual
processing. Finally, while we found that the Board has a good working relationship with BEP
and has established compensating controls and processes related to printing expenses, we believe
that the Board should strengthen the current inter-agency agreement with BEP by formalizing
existing operational reviews and enhancing inventory controls. Our report contains six
recommendations designed to address these issues.

      We provided a copy of our report to you for review and comment. In your response,
included as appendix 1, you indicated agreement with the report recommendations and discussed
actions already underway or that will be taken to implement the recommendations.

      The principal contributors to this report are listed in appendix 2. We are providing copies
of this report to Board management officials. The report will be added to our public web site and
will be summarized in our next semiannual report to the Congress. Please contact me if you
would like to discuss the report or any related issues.

                                           Sincerely,

                                            /signed/

                                     Elizabeth A. Coleman
                                       Inspector General


Enclosure

cc:   Vice Chairman Donald L. Kohn
      Governor Kevin M. Warsh
      Mr. Stephen R. Malphrus
      Mr. Donald Spicer
      Mr. William Mitchell
      Mr. Jeffrey Marquardt
      Mr. Donald Hammond
      Mr. Michael Lambert
      Mr. Gregory Evans
    Board of Governors of the Federal Reserve System



 REPORT ON THE CONTROL REVIEW OF
THE BOARD’S CURRENCY EXPENDITURES
         AND ASSESSMENTS




   OFFICE OF INSPECTOR GENERAL

                                                September 2008
                                           TABLE OF CONTENTS


                                                                                                                           Page

BACKGROUND .................................................................................................................7

OBJECTIVES, SCOPE, AND METHODOLOGY .............................................................8

FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS.........................................9

ANALYSIS OF COMMENTS ..........................................................................................16

APPENDIXES ...................................................................................................................17

        Appendix 1 – Division Directors’ Comments ..........................................................19

        Appendix 2 – Principal Contributors to this Report .................................................23




                                                                5 of 23
BACKGROUND
The Federal Reserve Act (Act) establishes broad authorities and responsibilities related to the
production, distribution, and destruction of Federal Reserve notes.1 For example, the Act
authorizes the Board of Governors of the Federal Reserve System (Board) to issue notes at its
discretion and provides that such notes are obligations of the United States. The Act also assigns
responsibility for the production of Federal Reserve notes to the Secretary of the Treasury, and
provides the Secretary with the authority to prescribe procedures for the cancellation and
destruction of notes that are unfit for circulation. The Secretary has, in turn, delegated
production authority to the Bureau of Engraving and Printing (BEP).2 The Act also authorizes
the Board to levy an assessment on the Federal Reserve Banks to pay for all expenses related to
producing, issuing, and retiring Federal Reserve notes.3

As part of its currency-related responsibilities, the Board prepares and submits to BEP an annual
order for new currency production. Based on the currency order, BEP establishes billing rates
for each denomination, and then bills the Board based upon the actual monthly production.
During 2006, the Board ordered, and BEP printed, over 8.5 billion notes at a cost of
approximately $470 million. In 2007, BEP printed 8.7 billion notes at a cost of about $555
million. The Board also contracts with commercial armored carriers to deliver new currency
from BEP to the Federal Reserve Banks and branches, and to ship new and fit currency between
the Federal Reserve Banks and branches. In addition, the Board reimburses BEP for costs
associated with (1) evaluating each Reserve Bank’s compliance with the Department of the
Treasury’s currency destruction standards and (2) processing claims for the redemption of
damaged or mutilated currency. The Board also participates in international consortiums for
research and development (R&D) activities related to counterfeit deterrence as well as new
currency development.

Although the Act authorizes the Board to levy an assessment on the Reserve Banks for all
currency-related expenses, it does not specify either the timing of the assessment or the method
to be used for allocating the costs among the twelve Banks. The Financial Accounting Manual
for Federal Reserve Banks (FAM) provides that the Board levies the Reserve Banks monthly for
printing expenses, and quarterly for expenses associated with shipping and destruction. The
FAM also states that the allocation is based on each Reserve Bank’s percentage of the net
number of notes outstanding on December 31 of the previous year. In 2006, the Board assessed
the Reserve Banks approximately $492 million for currency-related expenses incurred during the
year; this amount includes expenses for printing, shipping, destruction, and R&D. In 2007, the
Board assessed the Reserve Banks about $576 million. Table 1 shows the breakdown of
expenses for this two-year period, as well as the frequency of Reserve Bank assessments for each
category of expense.




      1
         Federal Reserve Act, sections 10, 11, and 16 (12 U.S.C. §§ 241, 248(d), and 411, respectively).
      2
         Treasury Order 101-07 delegates this authority pursuant to 31 U.S.C § 321(b)(2).
       3
         For the purposes of this report, “currency” is synonymous with Federal Reserve notes. The term excludes
coins and other monetary instruments.


                                                     7 of 23
Table 1 – Currency Expenses and Reserve Bank Assessments

                                    Expense / Assessment Amount
       Expense                                                                  Assessment
       Category                                                                 Frequency
                                       2006                   2007
                                    (millions)           (millions)
       Printing                           $ 469.7               $ 555.1           Monthly

       Shipping                           $ 15.1                 $ 13.7          Quarterly

       Destruction                        $   3.8                $   4.0         Quarterly

       Counterfeit Deterrence                                                     Quarterly1
       R&D                                 $ 3.3                 $   3.5

       Totals                              $ 491.9               $ 576.3
          1
            The Board received three invoices in 2006 related to R&D expenses. The assessment for these
     expenses is combined with the respective quarterly shipping assessment.

Within the Board, the Division of Reserve Bank Operations and Payment Systems (RBOPS) is
responsible for developing the new currency print order, coordinating shipments of currency
from BEP to the Reserve Banks and between the Reserve Banks and branches, preparing the
annual new currency budget, and collaborating with government agencies regarding counterfeit
deterrence activities. RBOPS and BEP staff use a Board-developed automated system, the
Currency Ordering System (COS), to monitor and control the production, inventory, and
distribution of new currency throughout the United States. RBOPS also uses two COS
subsystems: Carrier Billing Online (CBO) and Special Shipments. CBO is designed to
streamline and automate the billing process between the Board and armored carrier companies.
Special Shipments tracks currency shipments that are transported between one Federal Reserve
Bank and another. The Board’s Management Division (MGT) has responsibility for paying
currency expenses, preparing the corresponding assessments, and levying the assessments on the
Reserve Banks. MGT staff pays BEP for printing and destruction expenses after the Reserve
Banks are assessed; shipping and R&D expenses are paid prior to levying the assessments. MGT
staff calculate each Bank’s share for a given assessment using information provided by RBOPS.
The Banks’ payments are deposited into the Board’s general fund account at the Federal Reserve
Bank of Richmond (FRB Richmond); the Board’s expenses are paid from this account. MGT
also has overall responsibility for the Board’s procurement function, including procurement of
the currency armored carrier services.


OBJECTIVES, SCOPE, AND METHODOLOGY
Our objective was to evaluate the effectiveness of the Board’s controls over processes to record
currency expenses and to levy assessments on the Reserve Banks for these expenses. More
specifically, we assessed whether the controls over these transactions are designed and operate
effectively to provide reasonable assurance that (i) records and transactions are maintained in
sufficient and accurate detail to permit the preparation of the Board’s financial statement


                                                    8 of 23
information in accordance with generally accepted accounting principles; (ii) financial
transactions are processed in compliance with applicable laws, regulations, and management's
authorization; and (iii) unauthorized or fraudulent transactions are prevented or can be detected
in a timely manner. To accomplish our objective, we reviewed relevant documentation, analyzed
accounting records, and interviewed MGT and RBOPS staff. We also met with automation
support staff in the Board’s Division of Information Technology to better understand the
functionality within COS.

We did not, however, specifically evaluate COS automated controls as part of this review. The
OIG recently conducted a separate security control review of COS and its two subsystems as part
of our legislated responsibilities under the Federal Information Security Management Act
(FISMA).4 We also interviewed FRB Richmond staff responsible for processing the Reserve
Banks’ assessment payments. In addition, we met with BEP financial management and
production personnel to further understand the Bureau’s currency operations and related costs, as
well as the information flows between the Board and BEP. We did not specifically evaluate
BEP’s processes or controls.

Based on discussions and applicable documentation, we developed detailed flowcharts and
narratives of the Board’s expenditure and assessment processes for each currency expense
category. We used the flowcharts to identify controls, including key controls, for testing during
fieldwork. To test selected controls, we traced the currency-related transactions through the
Board’s payment and assessment processes. We confirmed invoice amounts, assessment totals,
and allocations; reviewed the associated documents for proper approvals; and analyzed
accounting reports. For currency costs associated with printing, destruction, and R&D, we
reviewed all nineteen payments made during calendar year 2006, as well as the corresponding
assessments. For currency shipping, we evaluated a judgmental sample of twenty-four carrier
invoices processed during the first six months of 2007 and the two related quarterly assessments.
We focused on calendar year 2007 transactions for this category of expenses because the Board
implemented a major enhancement to CBO in late 2006; the enhancement automated the
invoicing process for carrier-related costs. In addition, we reviewed the currency carrier
contracts and evaluated the contract awards for compliance with the Board’s procurement
procedures. Our review, which was conducted between April 2007 and May 2008, was
performed in accordance with generally accepted government auditing standards.


FINDINGS, CONCLUSIONS, AND
RECOMMENDATIONS
Overall, we found that the Board has controls over the processes to record currency expenses and
to levy assessments on the Reserve Banks, and that the majority of the controls were operating
effectively. Our testing did not identify any significant discrepancies, the supporting
documentation we reviewed was sufficient to permit the proper preparation of the Board’s
financial statements, and nothing came to our attention to indicate any instances of fraud or non-
compliance with laws and regulations. In our opinion, staff involved with ordering currency,
     4
         Our restricted report on the Control Review of the Currency Ordering System was issued in June 2008.


                                                     9 of 23
scheduling shipments, and coordinating efforts with BEP are dedicated employees who
collectively possess considerable institutional knowledge. Staffs’ commitment to these
processes is, we believe, one reason why our testing did not identify significant deficiencies.

Our fieldwork did, however, identify opportunities to enhance the Board’s processes and
strengthen controls for paying currency invoices, preparing and processing assessments,
monitoring vendor performance, and reporting the currency expenses in the Board’s financial
statements. Specifically, we found that MGT processed invoices approved by RBOPS staff
working in the currency section who were not listed on delegation of authority forms. In
addition, MGT supervisors did not always review assessment allocations before levying the
Reserve Banks, and the Board did not sufficiently monitor the currency carriers’ contracts to
ensure that current insurance certificates were on file. We also found that the Board’s financial
statements contain section headings, line descriptions, and footnotes that do not, in our opinion,
adequately describe currency costs. Our first four recommendations are directed at strengthening
these controls and improving these processes.

Our fieldwork also identified opportunities to strengthen the automation environment related to
currency assessments. We found that MGT had not enabled certain automated controls in the
Board’s financial management system, resulting in additional manual processes to calculate the
Reserve Bank assessment amounts. Our report contains one recommendation to address this
concern. In addition, as part out our legislated responsibilities pursuant to FISMA, the OIG
recently completed a security control review of COS and its two subsystems. Although the
FISMA review focused on system controls from an information security perspective, our
observations regarding COS account management and configuration change control are also
important to the overall control environment for generating and verifying currency expenses.
The Board should take into account these recommendations as it implements the other control
enhancements contained in this report.

We also found that the Board’s processes related to printing expenses place considerable reliance
on the controls at BEP. Specifically, BEP staff enter currency data into COS, perform daily
reconciliations between COS and BEP systems, and conduct periodic inventories of unissued
notes.5 Although the Board does not formally oversee BEP operations or its internal controls, we
found that the Board has established several compensating controls and processes. For example,
Board staff monitor currency production against budget information and production schedules,
and staff receive copies of the daily reconciliations and the year-end inventory results. Board
staff have also conducted operations reviews at BEP’s invitation. Although these processes
provide a good set of detective controls, we believe the Board should strengthen its current
relationship with BEP by formalizing the operations review process and establishing
requirements for an independent inventory of unissued notes. The last recommendation in our
report addresses this topic.

Ensuring that sufficient currency is in circulation to meet the public’s demand is an important
responsibility of the Federal Reserve System, and the expenses associated with this function
represent the largest line item on the Board’s financial statements. Because the costs are

      5
          Unissued notes are Federal Reserve notes stored at BEP that are available for shipment to a Reserve Bank or
branch.


                                                      10 of 23
ultimately paid by the twelve Reserve Banks and, therefore, also appear on their financial
statements, the entire System has a vested interest in the Board maintaining a strong control
environment to ensure that the costs associated with the currency function are accurate, fully
supported, and in compliance with applicable laws and regulations. Our six recommendations
are designed to help the Board maintain an effective system of internal controls. During our
fieldwork, we also identified lesser control and process enhancements which we plan to
communicate separately to the directors of RBOPS and MGT.

1.   We recommend that the Director of MGT ensure that currency invoices received for
     payment are approved by individuals listed on current Delegation of Authority forms.

MGT staff obtain Delegation of Authority (DoA) forms from all Board divisions and offices.
These forms identify individuals authorized to approve various types of payments. The DoA
form includes the individual staff member’s signature and is approved by the responsible
division director. MGT staff should verify that invoices have been properly approved prior to
payment by comparing signatures on the invoice to the DoA forms.

As part of our testing, we requested the DoA forms for RBOPS that were in effect during our
review period to verify that currency invoices were appropriately approved. DoA forms prior to
June 2006 could not be located by MGT staff and, therefore, we could not verify invoice
approvals for the first five months of 2006. Based on DoA forms that were available, we found
that between June and November 2006, MGT staff paid five printing invoices and two
destruction invoices that had been approved by RBOPS staff who were not listed on the DoA
form. In November 2006, RBOPS prepared an updated DoA form, and we confirmed that all
remaining invoices were appropriately approved.

We recognize that the seven invoices we questioned were for valid transactions, and that the
RBOPS staff who signed these invoices were knowledgeable about the transaction details.
However, we believe that MGT staff should process invoices only after confirming that the
approver is listed on the DoA form, and that the invoice approval matches the signature found on
the DoA. Ensuring that transactions are properly authorized is a fundamental requirement of an
effective system of internal controls. We note that this requirement was added to MGT’s
procedures related to accounts payable processing as of September 2007. If an invoice presented
for payment does not have an appropriate approval, MGT staff should suspend payment until the
transaction is properly authorized or a revised DoA form is received.

2.   We recommend that the Director of MGT ensure that currency assessment allocations
     are properly approved.

MGT staff prepare Reserve Bank assessments for currency-related expenses by determining the
amount to assess and then allocating this amount across the twelve districts. The Board allocates
currency expenses based on each Reserve Banks’ share of net notes outstanding as of
December 31 of the prior year. MGT staff stated that once the assessment calculation is
complete, they will prepare an assessment allocation schedule and forward it to a MGT
supervisor for review and approval prior to levying the Reserve Banks.




                                            11 of 23
As part of our fieldwork, we reviewed twenty assessment allocation schedules for accurate
calculations and appropriate approvals. Our testing did not identify any incorrect calculations.
We found, however, that only one of the twenty assessment schedules had evidence of
supervisory approval. When we brought this to their attention, MGT staff noted that the
assessment schedules usually receive a supervisor’s “cursory review” before the assessment is
processed, but that this review may not always be documented. In addition, staff stated that the
assessment schedule may bypass the review and approval process because of time constraints.

We consider the review and approval of the assessment allocation schedule to be a key control,
as the risk of inaccurate assessments increases if this step is bypassed. We note that MGT’s
currency-related accounting procedures, approved in January 2008, also identify this process as a
key control. In addition, during the 2007 financial statement audit, the Board’s external auditors
observed that assessment schedule approvals were not consistently documented.

3.   We recommend that the Director of RBOPS coordinate with MGT to ensure that
     currency carriers maintain insurance coverage throughout the length of the contract.

The Board uses commercial carriers for shipping currency throughout the Federal Reserve
System. The Board currently has two-year contracts with five commercial carriers; the
performance period for each contract is from January 2007 to December 2008. As part of the
procurement process, carriers must submit insurance certificates with their proposal. The
purpose of the insurance is to protect the Board from the risk of loss or damage to currency while
it is in transport. The contracts also require the carriers to maintain insurance coverage
throughout the two-year performance period. RBOPS staff serve as the contracting officer’s
technical representative (COTR), ensuring that the carriers comply with the contract’s technical
requirements.

During our review of the procurement process for these contracts, we confirmed that all five
carriers submitted insurance certificates prior to contract award. However, we found that the
insurance certificates submitted by four of the five carriers did not cover the entire length of the
two-year contract. The four insurance certificates all expired during 2007, and we did not find
additional documentation in the contract file to show that the Board obtained updated insurance
certificates. The COTR and MGT staff (who have overall responsibility for the Board’s
procurement process) stated that they did not monitor the carrier contracts to ensure that updated
certificates were obtained after the contracts were awarded.

Without up-to-date insurance certificates, the Board has no assurance that its interests are
adequately protected or that carriers are adhering to the terms of the contract requiring this
insurance. A lapse in insurance coverage poses a potential monetary risk to the Board given the
dollar value involved in currency shipments, as well as a reputational risk to the Board, should an
incident occur. When we brought this concern to their attention, MGT staff took prompt action
to obtain updated certificates. We reviewed these new certificates and found no indication that
coverage had lapsed for any of the carriers. Since two of the four updated certificates expire
prior to the end of the current contract period, we believe that RBOPS staff, as the COTR, should
coordinate with MGT staff (who maintain all contractual-related documents) to monitor the
carrier contracts and ensure that up-to-date insurance certificates are always on file.



                                              12 of 23
4.   We recommend that the Director of MGT enhance the Board’s financial statements
     by expanding the description of, and providing supplemental information on,
     currency expenses and assessments.

Currency expenses and assessments are the largest line items reported on the Board’s financial
statements. These costs include printing, shipping, destruction, and R&D expenses. Our review
did not identify any discrepancies in the amounts reported for these expenses in the Board’s
financial statements. However, our review found that the line item descriptions and
corresponding footnotes do not adequately explain the expenses, assessments, and associated
transactions. As stated in industry guidance, financial statements should include sufficient
explanations and interpretations to help users understand the financial information provided.

We found, for example, that the Board’s financial statements listed the currency assessments and
expenses under the heading “Issuance and Redemption of Federal Reserve Notes.” Although the
terminology “issuance and redemption” parallels language found in the Federal Reserve Act, the
heading is not descriptive of any of the four categories of expenses. The heading also fails to
refer to the Reserve Bank assessments, even though it is one of the two line items underneath the
heading. We note that in the 2007 financial statements the heading was changed to “Currency
Costs.” While the new heading more broadly describes the expenses, it still fails to refer to the
assessments. We also found that the financial statements describe the line item for currency
expenses as “Printing, issuance, retirement, and shipping.” This description fails to mention the
R&D expenses. We believe that modifying the currency heading and line descriptions would
help clarify the information contained in the financial statements.

We also believe that the footnote disclosures related to currency can be enhanced. For example,
the financial statements do not discuss the Board’s working relationship with BEP. The Board is
statutorily obligated to order currency from BEP and to reimburse BEP for the cost of
production; more than 95 percent of the total currency expenses are paid to BEP for printing.
We note that BEP acknowledges this relationship in their annual financial statements, as the
Board is BEP’s largest customer. In our opinion, incorporating the roles and responsibilities of
the two entities into the Board’s financial statement footnotes would provide a better
understanding of the relationship between BEP and the Board.

In addition, we believe that the footnotes should provide a breakout of the four components of
currency expenses (printing, shipping, destruction, and R&D) as well as a brief description of
each expense. The Board already issues an annual budget report that includes an appendix that
discusses the currency budget and describes each expense category in detail. We believe that
including some of this information in the financial statement footnotes or, at a minimum,
including a reference to the budget report, would provide the reader with a more thorough
description and better understanding of currency related expenses. The Board could also expand
the footnotes to explain that the reported expenses do not include other costs associated with
currency incurred directly by the Reserve Banks, such as the districts' currency-processing
equipment and associated staffing costs. An expanded disclosure would better inform the reader
about the factors that comprise the currency line item in the Board’s financial statements.




                                            13 of 23
5.    We recommend that the Director of MGT implement additional controls in the
      Board’s financial management system to restrict currency account codes to the
      currency cost center.

The Board’s financial management system maintains and processes financial data and
transactions, including currency-related expense and assessment transactions. Within this
system, cost centers and account codes are used to classify and record transactions. Cost centers
track a group of transactions for a specific business unit or functional purpose; account codes
identify financial transactions by type, such as assets, liabilities, revenues or expenses. The
Board uses one cost center to accumulate all currency-related transactions. The Board also uses
five currency account codes to track currency-specific revenue and expense transactions.

During our fieldwork, MGT staff explained that they perform multiple manual steps to ensure
accurate quarterly assessments for shipping and R&D expenses. Specifically, a staff member
first analyzes a report listing all expense account codes for the currency cost center. Another
individual—using a summary trial balance report which lists totals by account code regardless of
the cost center—then independently calculates the shipping and R&D expenses. Finally, a
supervisor compares the two amounts for each expense to confirm that no miscoded transactions
exist in either report. MGT then assesses the Reserve Banks for these expense categories based
on the reconciled amounts.6

We found that the Board’s financial management system has the capability to restrict specific
account codes to a given cost center. This feature, referred to as cross-validation, helps prevent
miscoded transactions, and would eliminate the additional manual steps that MGT staff presently
perform to reconcile expense totals. Although the Board has implemented this functionality for
certain cost centers and account codes, we confirmed that MGT had not implemented cross-
validation rules to restrict currency account codes to the currency cost center at the time of our
review. Although we did not find any mathematical errors in the assessment we reviewed, we
believe that MGT should implement the financial management system’s cross-validation rules
for currency transactions. Implementing this feature will, in our opinion, strengthen controls and
increase efficiency.

6.    We recommend that the Director of RBOPS establish agreements between the Board
      and BEP to 1) formalize the vault operational reviews and 2) develop a mechanism to
      independently verify the unissued notes inventory.

The Act and other federal statutes set broad responsibilities regarding the issuance and retirement
of Federal Reserve notes. The Board and BEP have also developed a memorandum of
understanding (MOU) that further describes each organization’s authorities and responsibilities
related to currency printing, shipping, and destruction. For example, the MOU prescribes that
the Board is responsible for establishing the annual print order and for notifying BEP of planned
currency shipments to the Reserve Banks and branches. BEP, in addition to printing currency, is
responsible for storing notes in a secure environment until shipped; for auditing and verifying the

      6
        MGT staff do not perform a similar reconciliation for printing and destruction expenses. Printing expenses
are assessed each month based on the monthly BEP invoice before the invoice is paid. Destruction expenses are
assessed each quarter based on the quarterly BEP invoice before the invoice is paid.


                                                    14 of 23
unissued note inventory; and for prescribing procedures to cancel, destroy, and account for unfit
currency. The two entities are supposed to jointly verify the monthly total of notes produced by
BEP and the cost of those notes. The MOU was last updated in 1998.

Neither the statutes nor the MOU provide for any direct oversight of BEP by the Board for
currency production or operations. We found, however, that RBOPS staff have periodically
performed BEP vault operational reviews at the invitation of BEP management. RBOPS
conducted its most recent review in 2006. The review’s objectives included an assessment of
BEP’s internal controls over the Federal Reserve vault operations and public sales program,
including an evaluation of the adequacy of and compliance with vault procedures, as well as an
assessment of BEP’s monthly reporting and invoicing of unissued notes. While the review
identified a number of concerns, RBOPS did not perform any specific follow-up work on these
findings; staff stated that operational improvements were noted during regular contact with BEP.

Absent specific statutory authority, we believe that the operational reviews are in keeping with
the Board’s general authority to “…supervise and regulate through the Secretary of Treasury the
issue and retirement of Federal Reserve notes.”7 The Board and BEP maintain a unique
“customer-vendor” relationship and rely on the close working relationship between the two
entities to coordinate currency printing and shipping. We believe that the Board should work
with BEP to formalize the operational reviews and establish a regular frequency for conducting
the reviews; RBOPS staff told us that the last review prior to 2006 was conducted in 2001. We
also believe that the review’s agreement should provide for the Board to follow-up on concerns
or suggestions identified, as appropriate. These provisions will establish a more proactive
method to identify issues before problems arise and provide assurance that concerns have been
addressed. We note that the Board and BEP staff are currently reviewing the existing MOU, and
that these provisions could be added to that agreement.

We also believe that controls over the inventory of unissued notes could be strengthened. We
found that BEP’s Office of Compliance, an operating unit separate from BEP’s currency
production environment, performs a daily reconciliation between an internal BEP system and the
Board’s COS. The Office also conducts quarterly inventories of unissued notes. Results of these
activities are communicated to the Board as prescribed in the MOU. However, a routine,
independent inventory of unissued currency is not currently performed. BEP’s external auditors,
for example, do not review the unissued inventory as part of the Bureau’s annual financial
statement audits, and we were unable to identify any non-BEP entity performing this function.

While the Office of Compliance is independent of the BEP production function, we believe that
an independent third party should perform a periodic inventory of unissued notes to supplement
the inventories and reconciliations performed by BEP staff. In our opinion, an independent
inventory is a fundamental control that provides for an appropriate separation of responsibilities.
Allowing for an independent inventory at the Board’s request is another requirement that should
be added to the existing MOU.




     7
         Federal Reserve Act, section 11(d) 12 U.S.C. § 248(d)


                                                     15 of 23
ANALYSIS OF COMMENTS
We provided a copy of this report to the director of MGT and the director of RBOPS for review
and comment. In their response, included as Appendix 1 to this report, the directors agreed with
the report recommendations and discuss actions already underway or that will be taken to
implement the recommendations. Specifically, the director of MGT plans to automate the
verification of invoice approvals by tracking and routing approvals online in the financial
management system. The director also has implemented functionality in this system to require
the review and approval of the assessment allocation online, as well as restricting currency
account codes to the currency cost center. The director’s response states that presentation
refinements in the 2008 financial statements will include additional explanations and
interpretations of currency-related information. The director of RBOPS plans to ensure that
currency carriers’ insurance certificates are kept current and comply with the contractual
requirements. In addition, RBOPS staff will begin discussions with BEP on updating the MOU
to provide for periodic reviews of BEP vault operations, and include a mechanism for an
independent third-party verification of the unissued notes inventory.




                                            16 of 23
APPENDIXES
Appendix 1 ─ Division Directors’ Comments




                                      September 12, 2008


Ms. Elizabeth Coleman
Inspector General
Office of the Inspector General
Board of Governors of the Federal Reserve System
Washington, DC 20551

Dear Beth:

       Thank you for the opportunity to review and comment on the draft Report on the Control
Review of the Board’s Currency Expenditures and Assessment dated August 29, 2008. We are
pleased that the review did not detect any instances of fraud or other improprieties and that the
majority of the controls over the processes to record currency expenses and to levy assessments
on the Reserve Banks for these expenses are operating effectively. As discussed below, we
agree with your recommendations and have either implemented or plan to implement actions to
address them.

       Recommendation 1: We recommend that the Director of MGT ensure that
       currency invoices received for payment are approved by individuals listed on
       current Delegation of Authority forms.

       Response: We concur with this recommendation. Verifying signatures on invoices
       against a Delegation of Authority form is one of the steps in the “AP Invoice Processing”
       procedures, and MGT staff has been reminded of the importance of verifying
       authorizations prior to payment. As noted in the report, we addressed this issue in
       November 2006, and RBOPS will ensure going forward that the DoA forms remain up to
       date.

       The MGT division also plans to implement online approval for invoices, which will allow
       it to use the financial system’s functionality to route invoices directly to the individuals
       who have been authorized to approve payment. Actions taken on invoices will
       automatically be tracked within the system.

       Recommendation 2: We recommend that the Director of MGT ensure that
       currency assessment allocations are properly approved.

       Response: We concur with this recommendation. As the report notes, review and
       approval of the assessment allocation schedule is a key control in the division’s currency-
       related accounting procedures. The MGT division now uses functionality in the financial
       system to restrict the data entry and approval responsibilities, and the AR/AP supervisor


                                            19 of 23
Appendix 1 ─ Division Directors’ Comments

     reviews and approves the assessment allocation online. As part of the approval process,
     the supervisor also recalculates the allocation to help ensure accuracy.

     Recommendation 3: We recommend that the Director of RBOPS coordinate with
     MGT to ensure that currency carriers maintain insurance coverage throughout the
     length of the contract.

     Response: We concur with this recommendation. MGT staff will obtain current
     insurance certificates as the certificates expire, and RBOPS staff will work with the
     Procurement staff to request these certificates. MGT and RBOPS staff will review the
     certificates to ensure that the carriers’ insurance coverage is current and complies with
     the contract requirements.

     Recommendation 4: We recommend that the Director of MGT enhance the Board’s
     financial statements by expanding the description of, and providing supplemental
     information on, currency expenses and assessments.

     Response: We concur with this recommendation. As the report notes, the MGT division
     implemented several changes in the 2007 financial statements, and it will refine the
     presentation in the 2008 statements to include additional explanations and interpretations
     of the currency-related information. MGT staff will work with RBOPS staff to draft the
     additional language.

     Recommendation 5: We recommend that the Director of MGT implement
     additional controls in the Board’s financial management system to restrict currency
     account codes to the currency cost center.

     Response: We concur with this recommendation. The MGT division implemented this
     change earlier this year. Consistent with our discussions at the closing meeting, MGT
     staff will also review the possibility of assessing all expenses on a monthly basis, which
     will further streamline the account reconciliation process.

     Recommendation 6: We recommend that the Director of RBOPS establish
     agreements between the Board and BEP to 1) formalize the vault operational
     reviews and 2) develop a mechanism to independently verify the unissued notes
     inventory.

     Response: We concur with this recommendation. RBOPS staff will begin working with
     the BEP within the next month to update the Board-BEP memorandum of understanding
     (MOU). RBOPS will recommend that the MOU provide for periodic reviews of the BEP
     vault operations by RBOPS staff to assess efficiency and the control environment.

     Additionally, RBOPS staff will begin discussions with the BEP to include in the MOU a
     mechanism for an independent third-party verification of the unissued notes inventory.
     This verification would be in addition to the existing verification performed by the BEP’s
     Office of Compliance.



                                           20 of 23
Appendix 1 ─ Division Directors’ Comments

       We appreciate the constructive feedback provided by the review team. If you have any
questions regarding our remediation efforts, please let us know.

                                         Sincerely,

                                          /signed/

                                        H. Fay Peters
                               Director, Management Division

                                          /signed/

                                      Louise L. Roseman
             Director, Division of Reserve Bank Operations and Payment Systems


cc:    Stephen Malphrus
       Don Spicer
       Bill Mitchell
       Jeffrey Marquardt
       Don Hammond
       Gregory L. Evans
       Michael Lambert
       Brenda Richards
       Cynthia Gray




                                          21 of 23
Appendix 2 – Principal Contributors to this Report
Timothy Rogers, Auditor and Auditor-in-Charge
Chie Hogenmiller, Auditor
Keisha Turner, Auditor
Jacqueline Becker, Senior Counsel
Cynthia Gray, Project Manager
Andrew Patchan, Jr., Assistant Inspector General for Audits and Attestations




                                            23 of 23
